Office of
INSPECTOR GENERAL

 Audit Report




 Review of the Commission's
 Workers' Compensation Program


 Report No. IG-02-92




                                 August 1992
                                  Date Issued
     INSPECfOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                             WASHINGTON, D.C. 20436
August 20, 1992


                         REVIIl.V OF THE COlNINI:SSI:ON - S
                     ~-           CMPl5:NSATJtON PROORAN



The Office of Inspector General has completed a review of the
Commission's Workers' Compensation Program. This review, which was
not in the Fiscal Year 1992 Audit Work Plan, was scheduled in
response to a request from Senator Jim Sasser, Chairman of the
Subcommittee on General Services, Federalism and the District of
Columbia, of the Committee on Governmental Affairs. The objective
of the    review was   to evaluate    the Commission's workers'
compensation program established in accordance with the Federal
Employees Compensation Act (FECA).   Senator Sasser requested that
we provide the latest available numbers on total annual cost and
the number of people participating in the FECA program; estimate
the number of fraudulent or erroneous claims; identify obstacles
the Commission encountered concerning this program; and make
suggestions for improving the system.
The Commission has been fortunate in having very few FECA claims.
In fiscal years 1991, 1990 and 1989 respectively, only two, five,
and four accidents occurred for which a FECA report was filed and
not all of these accidents resulted in payments.       The annual
statistics at the time of our review showed 55 days charged to
continuation of pay (COP) at a cost of $7,137; medical costs of
$27,520; and compensation costs of $63,679.

In the following paragraphs and the body of this report, we
identify multiple problems, which we attribute to errors rather
than fraud, with the administration of the Commission's FECA
program.  The number of problems was high in comparison with the
number of claims, which is an inverse relationship that we could
probably have anticipated.   FECA is a fairly complex program and
the guidance is not always as clear as one would like so errors are
likely to occur when few claims are filed.   If the Commission had
a large number of claims, possibly more attention would have been
given to the program and fewer errors made.       We believe that a

                                        1
better FECA program needs to be developed so that the Commission
can avoid the experience of other agencies that have implemented
better controls only after incurring steeply escalating FECA costs.
We found that the Commission has not developed a comprehensive plan
to manage the FECA program in order to provide good service to
employees while containing costs. We found multiple problems with
the program administration including an excessive amount of time
charged to COP and inaccurate reporting of COP benefits, improper
leave buy-back, and inadequate verification and improper recording
of payments in the financial records.

Furthermore, the Commission does not have aggressive, informed
management of the worker compensation system. The Commission has
not   officially designated or      assigned responsibilities     in
connection with the FECA program and the staff informally assigned
responsibilities did not have sufficient training. Finally, except
for a link with the safety and health program, an effective program
has not been developed to control workers' compensation costs.

We believe that a maj or obstacle to the implementation of an
efficient cost effective program is the relationship with the
Department of Labor's Office of Workers    I Compensation Programs
(OWCP) .  Commission staff reported that they had considerable
difficulty in obtaining case numbers and information on claims from
OWCP and we found a mixed welcome in our effort to review the
reports and case files. We believe that in order for there to be
any real cost containment in the FECA program,            increased
coordination and cooperation will be needed between the agencies
and OWCP.

A synopsis of our recommendations based on the above findings is
that the Director of Administration:

          Amend the time charged to COP, provide instruction on the
          proper procedures for recording and reporting COP, and
          obtain quarterly reports from the payroll system to use
          in preparing the quarterly reports on COP;

          Properly complete an employee's repurchase of leave or
          reverse the conversion of leave;

          Assign responsibility for reviewing the        chargeback
          billings for FECA expenses and correctly      record the
          expenses;

          Incorporate responsibility for the FECA program into the
          Office of Personnel mission and functions statement,
          position descriptions and performance plans, provide
          training to staff with FECA program responsibilities, and
          develop policies for the FECA program designed to control
          workers' compensation costs.

                                 2
We appreciate the Commissioner's support and the Office of
Administration's response in concurring on the need to address
these issues promptly. In the two months since this audit report
was issued in draft format, four employees have filed notices of
work related injuries. An efficient and effective FECA program is
needed to ensure that any claims resulting from these injuries are
handled in a manner fair to the employee and to the Commission.

The Director of Administration generally agreed with the findings
and recommendations. A summary of the Director's comments on the
findings and our responses are presented on pages 8, 9, 12 and 16
of the report.   The Director's comments are presented in their
entirety as an appendix to the report.




                             ~~AltenhO        en
                              Inspector General




                                3
                           TABLE OF CONTENTS


INTRODUCTION AND SCOPE                          1

BACKGROUND                                      2

FINDINGS AND RECOMMENDATIONS                    3

CONTINUATION OF PAY BENEFITS                    3

     Excess Charges                             3

     Reporting                                  6

     Recommendations                            7

     Commission Comments                        8

LEAVE BUY-BACK                                  8

     Recommendation                             9

     Commission Comments                        9

FECA PAYMENTS                                   9

     Verification                               9

     Accounting Classification                 11

     Recommendations                           12

     Commission Comments                       12

COMPENSATION MANAGEMENT                        12

     Program Responsibility                    13

     Training                                  13

     Cost Controls                             14

     Recommendations                           15

     Commission Comments                       16

OBSTACLES ENCOUNTERED                          16
Attachments
     1.    Summary of FECA Costs
     2.    Summary of COP Reports


Appendix

           Memorandum from the Director of Administration,   dated
           August 12, 1992, on Draft Report
The Office of Inspector General has completed a review of the
Commission's Workers' Compensation Program. This review, which was
not in the Fiscal Year (FY) 1992 Audit Work Plan, was scheduled in
response to a request from Senator Jim Sasser to evaluate the
Commission's workers' compensation program.       As requested by
Senator Sasser, we identified potentially fraudulent or erroneous
claims, obstacles the Commission encountered concerning this
program and suggestions for improving the system.

Our review was conducted in February through May 1992.          The
fieldwork was performed at Commission Headquarters in Washington,
D.C. We interviewed agency officials, primarily in the Offices of
Personnel (PN), Finance and Budget (OFB), and Management Services
(OMS)   to  determine   policy   and  procedures   concerning   the
administration of the workers' compensation program and the
relationship with the Commission's safety and health program. We
contacted employees of the Department of Labor's Office of Workers'
Compensation Program (OWCP) and the Office of Inspector General for
information and clarification of guidance.     We also interviewed
current Commission employees who have received benefits.

We evaluated compliance with the Federal Employees' Compensation
Act (FECA), as amended (5 U.S.C. 8101 et seq.); applicable
regulations on claims for compensation under the Act (20 C.F.R.
part 10); and Chapter 810 of the Federal Personnel Manual (FPM) on
Injury Compensation.     We also used a report issued by the
President's Council on Management Improvement (PCMI) entitled
"Creating a Safer, Healthier, More Productive Federal Workplace"
which identifies actions that agencies can take to improve their
worker's compensation program.

Our audit covered aspects of the FECA program from FY 1988 to date.
We analyzed quarterly and annual financial reports from OWCP and
Commission accounting reports.   We reviewed case files for three
individuals at the OWCP office in Washington D.C.     Based on the
analysis and reviews, we evaluated the validity of FECA charges.

The workers' compensation program was not specifically addressed
in any of the assessable units identified as part of the Federal
Managers' Financial Integrity Act (FMFIA) process.   We reviewed
FMFIA reports for the Personnel and Accounts Payable assessable
units for FYs 1989, 1990 and 1991. No weaknesses relevant to the
workers' compensation program were identified in these reports.

This review was performed in accordance with applicable generally
accepted government auditing standards.   Accordingly, the review
included an examination of internal controls and other auditing
procedures that were considered necessary under the circumstances.

                                 1
FECA was passed in 1916 to provide compensation benefits to
civilian employees of the United States for disability due to
personal injury sustained while in the performance of duty or to
employment-related disease. Benefits include payments for medical,
temporary total disability, permanent effects of injury and death.

FECA benefits are administered by the OWCP in the Employment
Standards Administration of the Department of Labor. The program
benefits are paid from the Employees' Compensation Fund managed by
OWCP and replenished through    chargeback billings sent to each
Federal agency.

The Commission has been fortunate in having very few FECA claims.
In FYs 1991, 1990 and 1989 respectively, only two, five, and four
accidents occurred for which a FECA report was filed and not all
of these accidents resulted in payments.    The annual statistics,
according to reports prepared by OFB and OWCP at the time of our
review, showed 55 days charged to COP at a cost of $7,137; medical
costs of $27,520; and compensation costs of $63,679. The costs over
the last three years are presented in Attachment 1.

An employee who is injured on the job must file a claim within 30
days to ensure FECA coverage. If an injured employee is diagnosed
by a physician as temporarily disabled, the employee may be
entitled to 45 days of continuation of pay (COP) benefits to cover
wage loss due to disability and/or medical treatment.    Employees
receive full pay on COP as opposed to workers' compensation which
is approximately 2/3 or 3/4 of regular pay.

An employee who cannot return to work within 45 days must file a
claim for extended benefits. OWCP is responsible for adjudicating
these claims to determine the individual's compensation status.
Individuals may continue to receive FECA benefits as long as they
are disabled.    Even upon becoming eligible for retirement, the
individual may choose to continue receiving FECA benefits rather
than retirement benefits if still disabled.

In the Commission, employees in PN, OFB and OMS have roles in the
FECA program.     Two group leaders in PN provide guidance to
employees on the program and assist in preparing claims prior to
sending them to OWCP. The safety officer, who is an OMS employee,
keeps a log of all accidents and refers individuals with potential
FECA claims to the group leaders. The safety officer maintains a
file of accident reports and the group leaders maintain claim files
for each individual.   OFB is responsible for making the necessary
accounting entries based on quarterly and annual reports received
from OWCP and preparing reports for submission to OWCP.


                                 2
We found that the Commission has not developed a comprehensive plan
to manage the FECA program in order to provide good service to
employees while containing costs.     The Commission has very few
accidents and resulting FECA claims annually.        However, our
evaluation of those few claims found multiple problems with the
program administration including an excessive amount of time
charged to COP and inaccurate reporting of COP benefits, improper
leave buy-back, and inadequate verification and improper recording
of OWCP paYments in the financial records.

Furthermore, the Commission does not have aggressive, informed
management of the worker compensation system. The Commission has
not   officially designated    or   assigned responsibilities     in
connection with the FECA program and the staff informally assigned
responsibilities did not have sufficient training. Finally, except
for a link with the safety and health program, an effective program
has not been developed to control workers' compensation costs.

We believe that a major obstacle to the implementation of an
efficient cost effective program is the relationship with OWCP.
Commission staff reported that they had considerable difficulty in
obtaining case numbers and information on claims from OWCP and we
found a mixed welcome in our effort to review the reports and case
files.  We believe that in order for there to be any real cost
containment in the FECA program, increased coordination and
cooperation will be needed between the agencies and OWCP.




We found that 37 days were improperly charged to COP and that an
excessive number of hours were charged to COP on another 30 days.
In addition, quarterly reports submitted by the Commission to OWCP
were not prepared in accordance with Federal regulations or OWCP
guidelines.


Excess Charges
We found that 37 days were improperly charged to COP, 18 of which
exceeded the FECA time limit for receiving COP, 1 for which a claim
was not filed, and 18 that were errors.    In addition, the full 8
hours for 30 days were charged to COP rather than the actual time
absent from work to receive medical treatment.          The errors
discussed in the following section may give the impression that a



                                 3
lot of claims are involved. In actuality, all findings except the
lack of claim documentation, relate to two claims each of which had
multiple errors.
     Time limitations. Injured employees are entitled to 45 days
     of COP which may be used continuously or intermittently if the
     employee suffers a recurrence of disability within 90 days
     after the date of first return to work.      As stated in FPM
     chapter 810 subchapter 5-7, if the recurrence of an injury
     occurs later than 90 days after the first return to work, the
     agency should not pay COP even though some days of entitlement
     remain unused.

     One employee charged 5 days intermittently to COP when
     receiving medical treatment for an injury, after which time
     the case was closed.   The employee experienced a recurrence
     of disability approximately 4 months after the initial injury.
     Even though the case was officially closed, over the next 3
     months, the employee charged 18 intermittent days to COP for
     medical treatment related to the first injury.

     As part of our review of the intermittent days charged to COP
     for this employee, we compared medical records that were in
     the Commission's personnel files with time sheets. We found
     that the employee received medical treatment on four days for
     which she would have been gone several hours but there was no
     charge to COP or a leave category.    The employee's absences
     should have been charged to a leave category as the time
     limitations for COP had been exceeded.

     The employee, who happens to be one of the Commission staff
     involved with administration of the FECA program, thought
     employees were entitled to 45 days of COP and was unaware of
     any time limitations. The employee was also not aware of the
     requirement in FPM chapter 810 subchapter 2-3 that a form must
     be filed to reopen the case and did not do so. The employee's
     timekeeper and the OFB accounting technician were also unaware
     of the time limitation even though the Timekeeper's Handbook
     states that the COP termination date should be annotated in
     the remarks section of the timesheet 45 calendar days after
     the first full day of disability.

     Claim documentation.   FPM chapter 810 subchapter 5-3 states
     that the agency may       not continue pay under certain
     circumstances, including when the injury was not reported on
     an approved form within 30 days following the accident.   We
     found one day of COP was charged for an employee for whom
     neither an accident report or claim form was on file in OMS
     or PN. This employee has since left the Commission.




                                 4
Recording errors. One employee was inj ured on the last Friday
in a pay period and became eligible for COP benefits. Due to
some confusion in recording the COP, the employee, who was his
own timekeeper, originally charged the days following the
accident to sick or annual leave or leave without pay and
later amended the time sheets to charge the hours to COP. Two
errors resulted.   First, the time sheet for the period prior
to the accident was amended to charge hours on 9 days to COP.
Second, all work days after the accident and within the 45 day
calendar limitation were charged to COP even though on 9 days
the employee was working in a light duty status.

Partial day charges. As stated in PPM chapter 810 subchapter
5-5, COP should be charged only for those hours that the
employee is absent from work; for example, if an employee who
has returned to work must lose 3 hours in order to receive
physical therapy, he/she is entitled to only 3 hours of COP.

We found that the entire day was charged to COP rather than
just the hours gone for two employees who received medical
treatment on 30 separate intermittent days.   (These are the
same two employees previously discussed in the sections on
time limitations and recording errors.)   One employee had 5
days of COP for which 40 hours were charged to COP when only
10 to 15 hours should have been charged. The other employee
had 25 days of COP for which the entire day, a total of 200
hours, was charged to COP rather than the actual time absent
of 97 hours.

The timekeeper for the first employee had recorded the exact
hours the employee was absent, and was told by the OFE
accounting technician to amend the time sheets to charge the
entire day to COP.   The other employee was also told by the
OFB accounting technician to record the entire day to COP and
not just the hours gone from work.

The Timekeeper's Handbook is quite clear on how to record COP
hours.   The guidance on recording COP hours states: (1) (a)
Record the actual number of hours absent each workday with
transaction code 81-COP hours.     (f)     If an employee is
absent for part of a day, annotate the beginning and ending
clock times.    However, a payroll center representative had
advised the OPB accounting technician to record eight hours
whenever an employee was on COP, based on guidance in a
training manual from the u.S. General Services Administration
 (GSA) Office of Finance. The payroll center notified OFB on
June 12, 1992, that as of the pay period ending May 30, 1992,
the actual hours used for COP can be recorded on the time
sheet instead of eight hours.    OFB implemented this change
immediately.



                            5
Reporting
We found that the quarterly reports submitted by the Commission to
OWCP were not prepared in accordance with Federal regulations or
OWCP guidelines.   Reports were not submitted for over a year and
a half and when they were submitted retroactively, the figures were
inaccurate. Errors included listing the same employee in more than
one quarter, counting weekend days as COP workdays and overstating
the cost amount.
Federal regulations state that each agency having an employee who
is in a COP status during the calendar quarter shall submit a
report to OWCP within 30 days after the end of the quarter.   The
reports are to include three figures:  the number of employees on
COP, a workday count and the total cost.

We found that the Commission had not submitted the required reports
in a timely manner.     In April 1987, OWCP notified a personnel
management specialist, who is no longer at the Commission and whose
ties to the FECA program are unknown, that the required reports had
not been submitted for at least the last two quarters.      In July
1991, OWCP notified the Chief of the Finance Division that reports
had not been received for three quarters of FY 1989 or any of FY
1991. OFB submitted these reports and has submitted the first two
quarterly reports for FY 1992 on time. (A schedule of the quarterly
reports from FY 1988 to date is presented in Attachment 2.)

Even though the Commission has had minimal COP activity,        the
reports have contained multiple errors as discussed below.

     Employees on COP.   The agency is to report the total number
     of employees provided COP during the quarter and who have
     either returned to work or exceeded the 45 day period.      We
     found that three of the five employees who received COP since
     FY 1989 were included in two or three quarterly reports rather
     than just the one in which they returned to work.

     Workday count.   The agency is to report the total number of
     workdays or shifts for which the employees on COP were paid
     during the quarter and the earlier quarter if return to work
     did not occur during such earlier reporting quarter. We found
     that weekends were included in the count for the one employee
     absent for a continuous extended period.

     Total cost.   The agency is to report the total amount paid
     under the COP provisions to all employees during the quarter
     and the earlier quarter if applicable.   This should be only
     the actual amount of cost incurred.      However, since the
     Commission was overreporting the hours spent on COP, (see
     prior section on partial day charges) the amount of cost
     reported was also overstated.


                                 6
We acknowledge that the reporting requirements in the federal
regulations and the instructions provided by OWCP are not clear,
but believe a bigger problem is that the manner in which OFB
obtains information about COP is inefficient and prone to errors.
OFB has informally assigned the responsibility for compiling the
data for the report to an accounting technician who is also
responsible for reviewing the Commission's time sheets prior to
sending them to the payroll center for processing. The accounting
technician's process for gathering the information for the COP
report is to record any COP hours that are observed while reviewing
the timesheets.    The technician may also call a timekeeper for
input on an employee whom she is aware of being on COP.         The
information is given to the operating accountant to prepare the
quarterly report.     Usually, the information gathered by the
technician does not identify the name of the employees on COP or
the exact days and hours.

A simpler and more accurate method would be to have a COP report
generated in connection with the payroll process. At one time, the
payroll center did provide verbal input for the COP report, but
this may only have been upon request for specified persons.      A
report generated by the payroll system would ensure that all COP
charges were identified and provide support for the report.    OFB
officials have arranged for the payroll center to send a report to
the Chief of the Finance Division every pay period that has
sufficient detail to properly report and sufficiently document COP
charges. This change was implemented in June 1992.

Recommendations
We recommend that the Director of Administration:

     1.   Amend the time sheets to reverse unallowable days charged
          to  COP    and  consider   amending   the  partial   days
          inappropriately charged to COP;

     2.   Instruct the accounting technician on the proper
          procedures for recording and reporting COP on time sheets
          and require that, in the future, any guidance given to
          timekeepers about COP is cleared with the operating
          accountant or division chief to ensure that it is
          accurate; and

     3.   Determine whether OWCP has any need for revised prior
          period reports, and if so, submit corrected reports.




                                 7
Commission Comments

The Director of Administration reported that the time and
attendance records are being amended in accordance with the audit
findings.   He noted correctly that these changes will not result
in any increases to the Commission expenditures. However, the need
to charge 56 hours to administrative leave and the partial days off
on unofficial light duty are expenses that did not have to be
incurred if FECA guidelines were being followed.

The Director also reported that the accounting technician was aware
of the proper procedures for recording and reporting COP on time
sheets, but did not follow these procedures because they were not
compatible with the GSA payroll system. GSA corrected the payroll
system effective the pay period ending May 30, 1992, so that COP
time can be properly recorded.

OFB filed amended quarterly reports with OWCP that correctly
reflected the COP charges. The number of employees, workdays and
total costs were a third to a half of what was reported originally.
As noted by the Director of Administration, the statistical
reporting does not affect the Commission's expenditures. However,
accurate statistics are needed in order to properly evaluate the
program and make policy decisions.




We found that the Commission had improperly applied the provisions
under which employees can buy-back leave.        An employee was
improperly credited with 126 hours of leave rather than paying his
share to repurchase 168 hours of leave, calculated as $433.33 by
GSA.

Federal regulations provide that an employee who takes sick or
annual leave to avoid possible interruption of income may
repurchase that leave, subject to agency concurrence, if the injury
claim is approved. Because leave is paid at 100% of the usual wage
rate and compensation is paid as a percentage, the employee will
generally owe the agency money for the leave repurchase.

One employee chose to go on leave after the COP benefits were
exhausted.   Over a 6 week period, the employee charged 168 hours
to sick and annual leave with the balance of time charged to leave
without pay.   Several months later, the employee filed a claim to
repurchase the 168 hours of leave. In January 1992, OWCP notified
the employee and the Commission that he was entitled to $1,805.58,
but would have to pay a balance in order for the leave to be
restored.   The employee authorized OWCP to send the compensation
check directly to the Commission to be used for the leave buy-
back.
                                 8
The Commission did receive the check from OWCP.       However, the
employee did not pay the balance of the amount due.   Instead, the
accounting technician in OFE calculated that the $1,805.58 was
sufficient to cover 126 hours of leave and allowed the employee to
convert 83 hours of annual leave and 43 hours of sick leave to
leave without pay.    The technician's supervisor, the operating
accountant, said that she was unaware that the employee's portion
should have been refunded and therefore did not obj ect to the
transaction.


Recommendation

We recommend that the Director of Administration:

          Obtain the employee's share for the leave buy-back and
          adjust the remaining leave authorized to be repurchased
          or reverse the conversion of 126 hours of leave and
          return the compensation funds to OWCP.


commission Comments

The Director of Administration reported that OFE was working with
GSA to complete the buy-back cost computation. On August 17, 1992,
the employee was notified that his share of the cost was $433.33
which is to be paid to the Commission.




Even though the FPM states that agencies are to pay special
attention to chargeback billings, we found that the Cormnission
performs a minimal review. Furthermore, we found that one of three
years of FECA expenses charged to the FY 1991 appropriation is not
a valid expense for the FY in which it is recorded.


Verification

FPM chapter 810 subchapter 9-1 states that agencies are to pay
special attention to the chargeback billings.      FPM chapter 810
subchapter 9-2 provides that OWCP will give each agency a quarterly
report with a breakdown of cases and costs for which charges will
appear on the yearly chargeback bill.        The interim quarterly
reports are intended to provide early notification of cases paid
and payments made so as to permit agency review, verification, and
correction before the final bills are produced.




                                 9
OWCP provides additional guidance on the need to review chargeback
billings in the Resource Book for the Advanced Course For Federal
Agency Compensation Specialists. As stated in the book:

     "The compensation specialist should review the annual and
     quarterly chargeback lists which OWCP sends to all Federal
     agencies to make sure the agency is being charged correctly
     for its compensation costs.    The list can also help you
     identify cases to review.

     There are three reasons to review the Chargeback List

     1.   Verify that claimants listed actually work or worked for
          the agency.

     2.   Identify payments that may be in error.

     3.   Identify cases where the medical status should be
          examined because claimants may not be totally disabled.II




The Resource Book provides several pages on how to accomplish the
above objectives.

The Commission has performed a very minimal review of the OWCP
quarterly reports since 1988. OWCP sends the quarterly reports to
OPB, and until 1988, the Budget Division did a minimal review to
confirm the legitimacy of employees identified as receiving
payments.  In 1988, the responsibility to review the reports was
informally transferred to a supervisor in PN who would request
copies of the quarterly reports from OFB to review.     When this
supervisor left the Commission in May 1989, the responsibility was
not assumed by anyone else in PN or resumed by OFB. The two group
leaders in PN had never seen the quarterly reports and were not
aware of any responsibility to review chargeback billings.     The
Director of OFB said that he has continued to at least review the
names on the chargeback billings as being individuals who were or
are employees of the Commission.

Since August 1989, each quarterly chargeback billing has included
a notice that OWCP has a computer file with information on payment
transactions (medical expenses only) which is provided to a number
of Federal agencies and available upon request. The Commission had
not requested to receive the computer file information.

We obtained and reviewed the computer file of medical payments and
spent one day reviewing files at OWCP which resulted in several
questions about the validity of OWCP charges for the current FY.

          We identified 11 payments totalling $575 that appear to
          be duplicates.  These 11 payments had duplicate entries
          with the same procedure code, service date, amount, and
          payee.

                                10
          We identified one payment for $6,397.16 and a second
          payment for $6,397.15 with the same procedure code,
          service date and payee.      We believe the one cent
          difference is likely to be a coding error and that this
          is likely to also be a duplicate payment.

          An ex-employee suffered a minor injury in February 1988
          that required only one treatment according to the OWCP
          file. Three payments totalling $255 were made from July
          through December 1991 for treatment received in 1991.
          The doctor's office could only confirm the initial
          treatment.

The examples cited above indicate the need to review the chargeback
billings in accordance with the same principle that all payments
should be reviewed and authorized.    If the reviews were done by
someone who was familiar with the cases, we believe unauthorized
or excessive payments, such as the second example, would be
identified in addition to the obvious errors of potential duplicate
payments.


Accounting Classification

As stated in the GAO Principles of Federal Appropriations Law:
Second Edition Volume I,      three elements determine whether
appropriated funds are legally available: purpose, time and amount.
Simply stated, 31 U.S.C. 1301 prohibits charging authorized items
to the wrong appropriation.

Until FY 1991, OFE was charging the FECA expenses to the FY in
which the transaction was recorded even though the expense was
incurred and notification received two FYs previously.         For
example, the Commission was notified in FY 1989 of the amount for
that year's expenses which would be charged to the Commission in
FY 1991.   A recommendation was made as part of the financial
statements audit that an obligation should be established in the
FY that the Commission receives the notice of FECA expenses.
Accordingly, a change in accounting policy was adopted in FY 1991.

In implementing the new accounting policy, three years of FECA
expenses were charged to FY 1991. The FY 1989 expenses of $66,933
were charged to FY 1991 consistent with the prior accounting
policy. The FY 1991 expenses of $91,200 were obligated in FY 1991
consistent with the new accounting policy.

The FY 1990 expenses of $91,677 were also charged to FY 1991 which
is not consistent with the prior or the new accounting policy.
Under the prior policy, this expense would have been recorded in
FY 1992; under the new policy an obligation would have been
recorded in FY 1990. OFE officials said that the decision was made
to charge the FY 1991 appropriation because that was the year that

                                11
the change was being implemented. After we brought this issue to
OFB's attention, an adjusting entry was made to charge the FY 1990
expenses to FY 1992 in accordance with the prior accounting policy.

The Director of OFB said that the decision to change accounting
procedures needs to be reconsidered in light of this experience.
We have no objection to returning to the prior accounting policy
with the understanding that an adjusting entry would usually be
required as part of the financial statement audit.


Recommendations

We recommend that the Director of Administration:
     1.   Assign responsibility      for   reviewing   the   chargeback
          billings; and

     2.   Determine what accounting policy will be used for
          recording FECA expenses and correct the accounting entry
          for the FY 1991 FECA expenses if the prior accounting
          policy is chosen.


Commission Comments

The Director of Administration agreed that the responsibility to
review charge-back billings will be assigned to the Director of
Personnel with the support of the Director of Finance and Budget.
OFB decided to record FECA expenditures in accordance with the
prior accounting policy and made adjusting entries for FYs 1990
and 1991 FECA expenses to reflect the prior accounting policy.




We found that the Commission does not have aggressive, informed
management of the worker compensation system. The Commission has
not officially designated or       assigned responsibilities    in
connection with the FECA program and the staff informally assigned
responsibilities did not have sufficient training.    Furthermore,
except for a link with the safety and health program, an effective
program has not been developed to control workers' compensation
costs.




                                12
Program Responsibility

FPM chapter 810 subchapter 9-1 states that agencies should
designate a representative with each organizational unit who will
serve as a liaison with OWCP concerning unusually difficult claims.
In most agencies the FECA program is administered by personnel
specialists or safety officers or a combination of both.

The Commission has not officially designated or assigned any
responsibilities    in   connection  with   the   FECA   program.
Responsibili ty for administration of the FECA program is not
addressed in the mission and function statements for any of the
three offices (OFB, OMS or PN) that we worked with in conducting
this review.    The two group leaders in PN have been informally
assigned FECA-related duties, but these are not included in their
position descriptions or performance plans.

In our opinion, PN should have primary responsibility for the
administration of the FECA program. These responsibilities should
be set forth in the appropriate documents including the PN mission
and   functions  statement   and  the  group   leaders'   position
descriptions and performance plans.


Training

FPM chapter 810 subchapter 9-1 states that agencies should ensure
that sufficient training in technical and managerial skills is
provided to those personnel who will routinely handle compensation
claims and that resource materials are available to those who
handle them infrequently.     OWCP has developed several kinds of
instructional   materials   to   assist  agencies  in   processing
compensation claims ranging from several hours to several days.

We found that the two group leaders did not have sufficient
training.   Both of the PN group leaders estimated that the last
time they had attended training on FECA was approximately five
years ago.    Nei ther of them was even aware of two seminars
sponsored by the Small Agency Council on FECA within the last year.

At a training course that we attended on the program, OWCP
mentioned that they have a mailing list and hold quarterly meetings
to discuss the FECA program.    Neither of the group leaderrs was
aware of these quarterly meetings and they were not on the list to
receive notices. As part of this same training course we obtained
copies of booklets issued several years ago that describe the FECA
program and were written to be given to injured employees.      The
group leaders did not have copies of these booklets and did not
even know they were available.




                                13
The Commission did not have a copy of the Resource Book "Advanced
Course for Federal Agency Compensation Specialists".      This book
addresses topics such as claim processing and review, case review,
controversion, light duty, review of the chargeback list, long term
case review, and rehabilitation.     Even though the Commission's
personnel do not spend their entire day on FECA related matters,
they must be familiar with these areas when the need arises and the
training and resource material should be provided.

We understand that maintaining expertise on the FECA program is
difficult when the Commission only has three or four new claims a
year and a minimal level of continuing activi ty.     However, we
believe that it is important to maintain a basic knowledge of the
FECA program in order to monitor cases and provide advice to
injured employees, supervisors and program administrators.    The
problems identified in this review clearly indicate a need for
Commission personnel to have a better understanding of the FECA
program.


Cost Controls

FPM chapter 810 subchapter 9-1 states that agencies are encouraged
to develop comprehensive plans for managing their compensation
programs in order to provide good service to employees while
containing costs.    As stated in a PCMI report, the largest
percentage of worker compensation costs go to pay those who were
injured in the past and are on the long term worker compensation
rolls.    Therefore, the key to significant cost reductions is
bringing individuals back to productive employment as soon as
possible.

Federal regulations are quite specific about the employing agency's
responsibilities in returning the employee to work. As stated in
20 CFR 10.123, the employing agency shall monitor the employee's
medical progress and duty status by obtaining periodic medical
reports.   To facilitate an injured employee's return to suitable
employment, the employing agency may correspond in writing with the
employee's   physician   concerning   the  work   limitations   and
restrictions imposed by the effects of the injury and possible job
assignments.

As discussed in the prior sections of this report, the Commission
does not have a comprehensive plan for managing the FECA program.
Based on our review of case files, we think the Commission's annual
costs could have been significantly lower if a comprehensive plan
with policies on monitoring, light duty assignments and return to
work had been in place.   For example:

     An  individual filed a stress related claim in 1971.       The
     supervisor submitted a memorandum stating that there had been
     no indication of a problem but the Commission did not actively

                                14
     oppose the claim.     Shortly after filing the claim,      the
     individual said he was capable of working a different job.
     The file has no indication that light duty or alternative work
     was offered. The individual has been on long term disability
     ever since.

     An individual injured her back when she fell at work in 1982.
     The original diagnosis was that she would be able to return
     to work in six months.     However, the back injury did not
     improve and the individual's overall condition seemed to
     worsen. In addition to treatment for the back injury, she is
     under medical care for hypertension and depression.    She is
     on an extended weight loss and exercise program for extreme
     obesity,   a pre-existing condition.      She also receives
     vocational rehabilitation benefits including counseling,
     language training and clerical skills. After eight years, the
     doctor objected to the length of time this injury was being
     treated, with the result that the individual changed doctors.
     At no point did the Commission ever question the benefi ts
     awarded or attempt to reemploy the individual.

     An individual injured a finger and after two weeks absence on
     COP was given light duty in accordance with a doctors
     statement.   After five weeks of light duty, the individual
     took eight weeks of leave.     In March 1992, the leave was
     converted to workmen's compensation which is a greater cost
     to the government because no service is received as when light
     duty is performed.

The PCMI report stated that, by reducing accidents, workers'
compensation costs are also reduced providing a compelling reason
for accident prevention and workers' compensation costs to be
managed together. We found that the Corrunission' s safety and heal th
and FECA programs are informally coordinated. Employees sUffering
an accident can report to either the safety officer in OMS or to
the group leaders in PN.    The office contacted would advise the
employee to complete the appropriate FECA forms and then notify the
other office of the accident.       Each accident is reviewed to
determine whether any changes       can be made to prevent           a
reoccurrence.   For instance, foul weather mats were laid in the
building entryway permanently after an employee slipped on a wet
floor early in the morning before the building was officially
opened and the mats laid.


Recommendations

We recommend that the Director of Administration:

     1.   Incorporate responsibility for the FECA program into the
          PN mission and functions statement and the performance
          descriptions and performance plans of the group leaders;

                                  15
     2.   Send PN group leaders to training on the FECA program and
          instruct them to attend the quarterly OWCP meetings; and

     3.   Develop policies for the FECA program designed to control
          workers' compensation costs.


commission Comments

The Director of Administration has agreed to take several steps to
further the informed management of the Commission's FECA program.
A published directive setting forth FECA policy, procedures,
responsibilities, and authorities, which we agree is an essential
instrument, is scheduled to be completed by December 1992.
Thereafter,    the PN mission and functions statement and the
performance descriptions and performance plans of the group leaders
will be revised.   The group leaders will be sent to training as
soon as possible depending on course availability.

The Director agreed to develop a program that contains measures for
controlling program costs efficiently and effectively. He proposes
that the measures will concentrate on actions at the time of the
ini tial claim and during chargeback reviews. We concur that review
and followup action at these points are good controls over workers'
compensation costs.




The FPM describes a cooperative process between OWCP and the
agencies in which they work together to manage the FECA program,
but this is not exactly how it works according to agency personnel
or in our experience.

We asked Commission staff involved wi th administering the FECA
program and employees who had filed claims to discuss their
experiences with OWCP. The most frequent comment was that claims
had to be submitted multiple times and an excessive amount of time
was required to process payments.      The problems have been so
protracted on one case that a lawsuit has been filed.  Commission
staff reported that they had considerable difficulty in obtaining
case numbers and information on claims from OWCP.
On the quarterly chargeback reports, OWCP advises the agencies to
review the figures and the regulations state that OWCP welcomes
authorized agency personnel to review case files at the district
office.   We found a mixed welcome in our effort to review the
reports and case files.    Some individuals at the Department of
Labor, including the Office of Inspector General, were very
cooperative and helpful.   But, the Commission's main contact at
OWCP was difficult to get in touch with, requiring repeated phone

                                 16
calls and reacted negatively to questions about the cases and
charges. We can certainly understand that this sort of reception
would not make agency employees eager to pursue an aggressive
management program.

We believe that in order for there to be any real cost containment
in the FECA program, increased coordination and cooperation will
be needed between the agencies and OWCP. At this time, OWCP seems
to be barely able to process claims in a timely and accurate manner
with minimal input from the agencies.    We question how OWCP will
be able to respond to agencies that adopt a more aggressive role
in challenging claims and questioning charges.




                                17
                                                       Attachment 1

                         SUMMARY OF FECA COSTS



       COP (FY Ending 9/30)            Chargeback (FY ending 6/30)

Year   Days          Amount            Medical           Compensation


1991   55       $ 7,137 ( 3 )           $27,520 ( 6)      $63,679 ( 3)

1990   58       $12,283 ( 3 )           $26,682 (7 )      $64,995 ( 3 )

1989   21       $2,582     (4 )         $ 5,763 (12)      $61,169 ( 3 )


Note: The figures in parenthesis are the number of claims.
                                                   Attachment 2



                     SUMMARY OF COP REPORTS


  Quarter          # of Empl.          # of COP         Total cost
  Ending                               Workdays

  12/91                 0                      0             0

  09/91                 1                     45        $5,158.80
  06/91                 0                      0             0
  03/91                 0                      0             0
  12/90                 2                     10         1,978.08

  09/90                 2                     53        11,385.12
  06/90                 1                      5           898.00
  03/90                 0                      0             0
  12/89                 0                      0             0

  09/89                 1                      2           212.80
  06/89                 2                      4           380.32
  03/89                 1                     15         1,988.40
  12/88                 0                      0             0

  09/88                 0                      0             0
  06/88                 1                      4           509.44
  03/88                 1                      1           127.36




Note:     Statistics are as of the date of our review and do not
          reflect revised figures submitted by OFB.
                                                            Appendix


                                                     AD-P-527




UI\JITET1 ST.<L\TES r:'~TER~~ATI01\A_L TRADE COlvl~.1ISSIOI·~·J




 August 12, 1992


 MEMORANDOH


 TO:          Inspector General                                   .   ...



 FROH:      13irector, Office of     Administration~~
 SUBJECT:     Draft Report, wReviewof the Commission's
              Workers' Compensation Program-

 As requested by your memorandum dated June 19, 1992
 (IG-P-035), sUbmitted herewith is the Office of
 Administration's response to the subject draft audit
 report issued June 19, 1992. In accordance with Section
 11 of the USITC Directive 1701, the Commissioners have had
 an opportunity to comment on the response and the Chai~
 has approved it.

 The Office of Administration agrees with all the audit
 recommendations. The attached response includes the
 actions to be taken and the target completion dates.

 Please call me at 205-3131 or Bill Stuchbery at 205-3135
 if you have any questions.


 ATTACRHENTS

 cc:     Director, Office of Personnel
         Director, Office of Management Services
         Director, Office of Finance and Budget
...




             ADMINISTRATION'S RESPONSE TO THE DRAFT AUDIT REPORT


                      CONTINUATION OF PAY (COP) BENEFITS

 RECOMMENDATION:

 1.         The Director of Administration should amend the t~e sheets
            to reverse unallowable days charged to COP and consider
            amending the partial days inappropriately charged to COP.

 RESPONSE:           AGREE

  The audit findings state that: 37 days were improperly recorded
  as COP t~e in the GSA payroll system (18 days which exceeded the
  FECA time limit for receiving COP, 1 day for which a cla~ was
  not filed and 18 days that were in error); an excessive number of
  hours were charged to COP time on 30 days where the full 8 hours
  were charged to COP rather than the actual time absent from work;
  and on 4 days medical treatment was received however there were
  no charges to either COP time or a leave category.

      Time and Attendance Records can be amended as follows:

      (A)   For the 18 days in 1990 recorded as COP time which exceeded
            the FECA t~e limit, there were only 56 hours of actual time
            off for medical treatment. To correct the situation, based
            on a request by the Director, Office of Personnel approved
            by the Director Office of Administration, this 56 hours will
            be charged to Administrative Leave. This will not result in
            an increase to Commission expenditures.

      (B)   During the summer of 1989 an intern was hurt while
            perfo~ing her job and was authorized 1 COP day.    She would
            have been entitled to the excused absence, but failed to
            file a Workers' Compensation cla~. Since the employee is
            no longer with the Commission no further action is being
            taken.

      (C)   For the other 18 days recorded as COP time during 1991, 9
            COP days were recorded in error when an injured employee's
            Time and Attendance Records were amended to record the time
            off, 2 were non·pay COP days and 7 were COP days when the
            injured employee worked Rlight dutyR. The Director, Office
            of Management Services, in an appropriate attempt to get the
            injured employee back to work, authorized the injured
            employee to work half days as part of an informal light duty
            assignment. T~e and Attendance Records have been amended
            to correct the 9 days recorded in error, however, COP time
            should be recorded for the non·pay days and days of light or
            half t~e duty. This recording error did not res~lt in an
            increase or decrease to Commission expenditures.

                                       2
(D)   Based on GSA payroll system requirements all COP time was to
      be reported in full 8 hour increments. Therefore the 30
      days where the full 8 hours were charged to COP time rather
      than the actual t~e absent from work was done in accordance
      with GSA payroll system requirements. However, for internal
      record keeping purposes, we will ~end the appropriate Time
      and Attendance Reports to reflect only the actual time
      absent from work. This recording error did not result in an
      increase or decrease to Commission expenditures.

(E)   The Ttme and Attendance Reports are being amended to charge
      COP time for the appropriate hours on the 4 days medical
      treatment was received. The t~e incurred for medical
      treatment on these days was within the 45 day period and is
      allowable as COP time. This recording error did not result
      in an increase or decrease to Commission expenditures.

TARGET COMPLETION DATE:   August 31, 1992.


RECOMMENDATION:

2.    The Director of Administration should instruct the
      accounting technician on the proper procedures for recording
      and reporting COP on time sheets and require that, in the
      future, any guidance given to timekeepers about COP is
      cleared with the operating accountant or division chief to
      ensure that it is accurate.

RESPONSE:         AGREE

The audit findings state that the full 8 hours for 30 days were
charged in the GSA payroll system to COP time rather than the
actual time absent from work.

The Accounting Technician, the Operating Accountant and the Chief
of the Finance Division were aware of the proper recording of COP
time. However, they were also aware that the GSA payroll system
REQUIRED that COP time be recorded only in 8 hour increments.
While this was contrary to the instructions in the GSA Time and
Attendance Handbook, the payroll system would have rejected the
employees T~e and Attendance Records and the employees would not
have been paid if the COP time was recorded otherwise. This
situation was corrected by GSA effective with the pay period
ending May 30, 1992. This recording error did not result in an
increase or decrease to Commission expenditures.

TARGET COMPLETION DATE:   Completed.




                                 3
.Ir   II   •




               RECOMMENDATION:

               3.   The Director of Administration should dete~ine whether OWCP
                    has any need for revised prior period reports, and if so,
                    submit corrected reports.

               RESPONSE:         AGREE

               The audit findings state that COP quarterly reports submitted by
               the Commission to OWCP were not prepared in accordance with
               Federal regulations or OWCP guidelines. We contacted the
               Department of Labor's Office of Workers' Compensation Programs
               and filed an amended quarterly reports.


               TARGET COMPLETION DATE:        Completed


                                          LEAVE BUY- BACX

               RECOMMENDATION:

                    The Director of Administration should obtain the employee's
                    share for the leave buy-back and adjust the remaining leave
                    authorized to be repurchased or reverse the conversion of
                    126 hours of leave and return the compensation funds to
                    OWCP.

               RESPONSE:         AGREE

               We are currently conferring with the GSA National Payroll Center
               to complete the buy-back cost computation.

               TARGET COMPLETION DATE:    September 30, 1992


                                           RCA PA'DDmTS

               RECOMMENDATION:

               1.   The Director of Administration should assign responsibility
                    for reviewing the charge-back billings.

               RESPONSE:         AGREE

               The Director of Administration will by memorandum assign
               responsibilty for reviewing the charge-back billings to the
               Director of Personnel with the support of the Director of Finance
               and Budget until the directive covering the entire FECA program
               is issued. (target completion date of 12/31/92)

                TARGET COMPLETION DATE:   August 21, 1992

                                                 4
RECOMMENDAT~ON:


2.    The Director of Administration should dete~ine what
      accounting policy will be used for recording FECA expenses
      and correct the accounting entry for the FY 1991 FECA
      expenses if the prior accounting policy is chosen.

RESPONSE:         AGREE

A recommendation made by the independent accounting firm engaged
by the Inspector General for the audit of the Commission's FY
1989 and FY 1990 financial statements was that FECA obligations
should be recorded in the fiscal year that the Commission
receives the notification of the liability from the Department of
Labor, not in the year of payment as we had been doing for many
years. We did not disagree with this change in handling of the
Workers' Compensation liability, and accordingly a change in
accounting policy was adopted in FY 1991.

Due to the fiscal year specificity of government appropriations
we have reconsidered this recommended accounting change and
returned to the prior accounting policy. The Inspector General
has no objection to returning to the prior accounting policy with
the understanding that an adjusting entry would usually be
required as part of the financial statement audit.

TARGET COMPLETION DATE:      Completed


                          COMPENSATION MANAGEMENT


RECOMMENDATION:

 1.   Incorporate responsibility for the PECA program into the
      Personnel mission and function statement and perfo~nce
      descriptions and perfo~ce plans of the group leaders.

RESPONSE:   Agree

A published directive setting forth FECA policy, procedures,
responsibilities, and authorities is the essential instrument
required to begin the process. After the Directive is approved
(target completion date: 12/31/92) the mission and functions
statement for the Office of Personnel will be revised and
perfo~ce plans for assigned personnel will be modified •
                                             .3
TARGET COMPLETION DATE:       January 15, 199fY                     _

                                     5      ~~c.cr<" )..~~/
                                                  ~
                                                           C\'V
                                                       ~\o~ .~ tt
                                                      "b    f(:JY'~
 2.   Send Personnel group leaders to training on the FECA program
      and instruct them to attend quarterly OWCP meetings.
             -
RESPONSE:   Agree.

~t now appears probable, though not certain, that Department of
Labor (DOL) will offer their basic training course in October
1992, and Administration's nominations have already been provided
to DOL. We plan on arranging for notification of quarterly OWCP
meetings in conjuction with the training.

TARGET   COMPLET~ON   DATE:   October 30, 1992


 3.   Develop policies for the FECA program designed to control
      workers' compensation costs.

RESPONSE:    Agree.

A ~TC FECA Program directive will be developed and contain
measures for controlling program costs efficiently and
effectively, primarily by identifying potentially cost
controlling actions at the time of initial claim and during
chargeback reviews.

TARGET   COMPLET~ON   DATE:   December 31, 1992




                                     6
